<html>
<title> - PROHIBITING FUTURE RANSOM PAYMENTS TO IRAN ACT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


             PROHIBITING FUTURE RANSOM PAYMENTS TO IRAN ACT

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 5931

                               __________

                           SEPTEMBER 14, 2016

                               __________

                           Serial No. 114-228

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 _________
                                 
                                 
                                 
                        U.S. GOVERNMENT PUBLISHING OFFICE
21-540PDF                      WASHINGTON : 2016                        
                                 
_______________________________________________________________________________________                                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3f584f507f5c4a4c4b575a534f115c505211">[email&#160;protected]</a>  
                               
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H.R. 5931, Prohibiting Future Ransom Payments to Iran Act........     2
  An amendment in the nature of a substitute to H.R. 5931 offered 
    by the Honorable Eliot L. Engel, a Representative in Congress 
    from the State of New York...................................    29
  An amendment to H.R. 5931 offered by the Honorable Lee M. 
    Zeldin, a Representative in Congress from the State of New 
    York.........................................................    47

                                APPENDIX

Markup notice....................................................    54
Markup minutes...................................................    55
Markup summary...................................................    59
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia:
  New York Times article dated November 28, 1991, ``U.S. and Iran 
    Sign a Compensation Pact''...................................    60
  Prepared statement.............................................    61

 
             PROHIBITING FUTURE RANSOM PAYMENTS TO IRAN ACT

                              ----------                              


                     WEDNESDAY, SEPTEMBER 14, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:13 a.m., in 
room 2172, Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This committee will come to order.
    Pursuant to notice, we meet today to mark up H.R. 5931, the 
Prohibiting Future Ransom Payments to Iran Act.
    Without objection, all members may have 5 days to submit 
statements and related materials for the record.
    And I now call up H.R. 5931. Without objection, it is 
considered read and open for amendment at any point.
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    Chairman Royce. And after recognizing myself and the 
ranking member, I will be pleased to recognize any members 
seeking recognition to speak on the bill before moving to any 
amendments.
    So I very much appreciate the committee members assembling 
this morning so that we can consider this bill. I introduced 
this legislation to prevent ransom payments to Iran. And if 
this legislation was law, the administration's dangerous 
actions of last January could not have happened.
    As members of this committee well know, January 16 marked 
``Implementation Day'' of the administration's nuclear deal 
with Iran. But the committee was very much surprised when 
President Obama announced that the United States and Iran had 
agreed to a separate deal that had several American hostages 
released by Iran in exchange for the U.S. granting clemency to 
and releasing seven Iranians serving sentences or awaiting 
trial for serious crimes--such as aiding Iran's illegal weapons 
program.
    And that part of it made sense, in terms of the exchange of 
Iranian prisoners for our American hostages. But the President 
also announced then that the United States would pay Iran $1.7 
billion to settle a dispute over an aborted arms sale that 
stalled when the radicals that rule Iran seized power in 1979. 
Now, myself and the ranking member were part of many, many 
briefings leading up to that weekend. At no time did the 
administration mention that it was close to resolving this case 
or even mention this case at all. This settlement payment came 
out of the blue.
    The White House rejected concerns that this payment 
amounted to a ransom for the release of the American hostages--
despite Iranian military commanders boasting otherwise. The way 
in which a lot of us learned more details about this was 
watching the Iranian television station, watching the 
translations of their statements about what was afoot, what was 
going on.
    So, last month, when news broke that the United States 
secretly paid Iran the first part of this settlement--$400 
million, in unmarked bills, in cash--just as the hostages were 
released, it became clear that the President had rejected the 
advice of his own Justice Department and ignored a longstanding 
U.S. policy not to release prisoners or pay ransom in exchange 
for the return of Americans held hostage abroad. Even the State 
Department now admits that this payment was--what? They say, 
well, it was ``leverage'' for the release of American hostages.
    And after weeks of questions from Congress and the press 
corps, the Obama administration finally admitted that the $1.3 
billion of ``compromise interest'' was also paid in cash--put 
onto pallets and loaded onto cargo planes. One-point-three 
billion dollars in cash. Even broken up into two shipments, 
that must have been a big plane.
    Of course, the goal of the longstanding U.S. policy against 
ransom is to remove a key incentive for hostage-takers to 
target Americans and deny terrorists and their sponsors the 
resources they need to conduct attacks. Not surprisingly, Iran 
has since taken several more Americans hostage and continues to 
fund terrorist groups that threaten U.S. interests and 
destabilize the Middle East.
    So what drove this side deal, and why on Earth was it 
conducted in cash? Explicit provisions in existing regulations 
allow financial institutions to provide payments to Iran 
through conventional banking channels when those payments are 
made pursuant to a settlement agreement under the Iran-U.S. 
Claims Tribunal--as they supposedly were here.
    So the administration could have licensed a transaction 
through the international financial system. It would have taken 
maybe a week more. It might not have been timed for the release 
of these hostages. But it certainly could have been done that 
way. It should have been done that way, if they were going to 
do it. Instead, the administration chose to deliver $1.7 
billion in untraceable assets to the world's leading state 
sponsor of terrorism.
    We cannot allow this to happen again. There is a reason why 
conducting large transactions in cash with this type of regime 
is really bad policy, and that reason is because the 
international body charged with developing policies to combat 
money laundering and terrorism financing tell us that physical 
transportation of currency is, in their words, ``one of the 
main methods used to move criminal assets, to launder money, 
and to finance terrorism.'' Indeed, I believe that is why Iran 
wanted the cash, to support terrorism.
    It is not a coincidence to me that this desire for cash 
comes just as the committee's legislation to crack down on 
banks that finance Hezbollah is having an impact. Iran is 
having trouble transferring funds to Hezbollah as a result of 
the legislation this committee passed and was signed into law.
    So the legislation I have introduced has two core elements. 
One, it prohibits future cash payments--for any reason--to Iran 
until Iran stops sponsoring terrorism and is no longer a 
primary money-laundering concern. And, two, it demands 
transparency--a 30-day notification--and congressional review 
of any future settlements related to the U.S.-Iran Hague 
tribunal so that the committee is not surprised again when it 
comes to these large payments.
    And this, I think, is a reasonable piece of legislation 
that strikes the right balance between ending cash payments to 
a state sponsor of terrorism on the one hand while ensuring we 
can live up to our international commitments on the other.
    And I will now go to our ranking member, Mr. Eliot Engel of 
New York.
    Mr. Engel. Thank you very much, Mr. Chairman.
    Let me start by saying that there is no harsher critic of 
Iran in this Congress than myself. I think everyone on this 
committee knows that. I view Iran as a threat to global 
security. I opposed the nuclear deal. And I have said again and 
again that we need to hold Iran's feet to the fire on a range 
of bad behavior, from support for terrorism, to its ballistic 
missile program, to its atrocious record on human rights.
    I also want to go on record saying that I am uncomfortable 
with the parts of the payment sent to Iran earlier this year. 
There are parts of this process that Congress should take a 
hard look at.
    But let's make a few things clear. First of all, whether we 
like it or not, the payment that was sent to Iran was Iran's 
money. Decades ago, before the revolution in Iran, that money 
was payment for a weapons sale, but we certainly weren't going 
to send weapons to the ayatollahs.
    Secondly, again, whether we like it or not, there will be 
more payments to Iran in the future. Under the Algiers Accord, 
the United States agreed to abide by the rulings of the Iran-
United States Claims Tribunal. The payment sent earlier this 
year was part of a settlement reached in that body, and there 
are 1,126 claims still pending before the tribunal. We have 
been making payments this way since Ronald Reagan was 
President, and make no mistake, there will be more. That is an 
obligation we took on 35 years ago.
    So, in my view, given that reality, the most important 
question for this committee is, how do we ensure that Congress 
learns about when this is going to happen before it happens? 
Because, obviously, that is not what happened, and it is very 
galling that we didn't know about it. How do we ensure that 
that can't happen in the future? How do we ensure that we have 
an opportunity to weigh in and ask questions in the future?
    So the bill actually doesn't address that concern. From 
what I can tell, the bill has one major aim: Stop payments from 
going to Iran in cash, physical bank notes. But when we read 
the bill, the language in the bill prohibits payments in 
promissory notes, including currency. While promissory notes 
aren't money, they are exactly what they sound like: A 
commitment to make a future payment. And the fact is the United 
States did not issue a promissory note to Iran. Additionally, 
``currency'' doesn't refer only to physical bank notes. So I 
don't think this bill would do what we would like it to do.
    Now, my staff and I had a chance to look at the language 
only after the bill was drafted. Now, that is because it was 
not drafted with any input from Democratic members.
    We have worked very hard, all of us, in the 4 years to make 
sure that there is consensus in this committee. We do our best 
when there is consensus. I think we agree that there is a 
problem, and if we put our heads together, hopefully we could 
reach a bipartisan approach. When we are serious about passing 
legislation in this committee, we always collaborate across the 
aisle. This bill has 50 cosponsors, not a single Democrat. And 
so I don't think that this bill is really an attempt to have a 
consensus; it is more an attempt to make a statement.
    And this bill is--this is obviously a serious issue. I 
think we agree on much of this. We agree on the unhappiness of 
what happened. But I think, if we are really going to make some 
inroads, we need to put our heads <greek-l>to go deg.together 
and come up with a unified way of changing it. I think we can 
do that.
    So I am going to offer an amendment in the nature of a 
substitute that addresses the actual concerns that have arisen 
from this payment, that strengthens congressional oversight 
when it comes to future payments, and I think the committee 
would pass--and could pass without question.
    So I am going to do my part to offer a workable 
alternative, because I do agree with you, Mr. Chairman. Again, 
what happened was a problem, and Congress needs to be 
consulted. We are an equal branch of government, and I think 
that hiding things from Congress is not acceptable. But I think 
that the way we go about it, we should go about it, is to put 
our heads together, collaborate. Let's come up with something 
that has 100 cosponsors or 200 cosponsors, equally divided 
between Democrats and Republicans. I think that's what the 
American people would want us to do.
    So I am going to offer a workable alternative. And, as 
always, Mr. Chairman, we will work together and hopefully be 
able to get to the bottom of some of these things that really 
disturb all of us.
    I yield back.
    Chairman Royce. But would the gentleman yield?
    Mr. Engel. Yes, I would.
    Chairman Royce. Is it my understanding that it is possible 
that on the other side of the aisle there could be some support 
or concurrence with the idea that we would cut off the ability 
to transfer cash to Iran? Or does this go to----
    Mr. Engel. Well, I was told that the language--look, I am 
willing to sit down and come up with compromises to do what we 
want to do. But I am told that the language of the bill doesn't 
actually do, I think, what you would like it to do and cut off 
the cash. Because, as I mentioned before, it talks about--let 
me see if I can get the language here--it talks about 
promissory notes. And so they are not money, and we did not 
issue a promissory note to Iran.
    Chairman Royce. But it says promissory notes, including 
currency. So that would include cash. Promissory notes and 
cash.
    Mr. Engel. Well, I am willing to sit down and put our heads 
together and see if we can come up with a bill that we can all 
support. I am not opposed to placing restrictions on----
    Chairman Royce. Perhaps we could work on that definition of 
cash right now, if it is acceptable to the ranking member.
    Mr. Engel. Well, what would you have----
    Chairman Royce. We can continue to debate, but I think the 
goal that I have in this is pretty straightforward. It is to 
prevent again this kind of transaction which we saw for the 
$400 million and the $1.3 billion in the successive 
transportation, or flights, that took these pallets of cash 
from occurring again.
    And if we can work on language here now during the markup 
that is specific in how we define that cash--in this case, we 
know they were pallets of unmarked euros and of Swiss francs. 
So if we can arrive at a definition of how we define--let me--
Mr. Sherman, I think, was seeking recognition.
    Mr. Sherman. I would just interject that there are bearer 
bonds issued by European corporations that are just as 
untraceable and are not covered by the language of the bill 
since it deals with sovereign debt and not corporate debt.
    I yield back.
    Chairman Royce. So my thought, at this point, Mr. Sherman 
and Mr. Engel, would be: I am open to us working on that 
definition in concert here during the markup or maybe getting a 
broad enough definition for an amendment and then have our 
staff continue to work to refine it. But I think we can reach a 
common objective, if it is to prevent the transfer of cash to 
Iran, that would be helpful.
    Mr. Engel. Well----
    Chairman Royce. Let's continue discussion, if we could.
    Mr. Engel. Okay.
    Mr. Chairman, the notification provisions in this bill--
correct me if I am wrong--would prevent any payments since the 
President would not be able to make certification. So I think 
that you have that there. But our goal would be to do the same 
thing.
    So if you would like to recess for a few minutes and maybe 
we can work out the language, I would be amenable to that.
    Chairman Royce. Well, there are two options here. One is to 
recess for a few minutes to work on this. The other would be 
for us to work on it while we allow members to continue to 
debate the issue.
    Mr. Engel. That is fine.
    Chairman Royce. That might give them the time to do this 
while we are in consultation.
    Mr. Engel. That is fine with me.
    Chairman Royce. So I will recognize Mr. Smith of New 
Jersey, followed by a Democratic member. In the meantime, we 
will consult.
    Mr. Smith of New Jersey is recognized.
    Mr. Smith. Thank you very much, Mr. Chairman.
    I want to thank you for authoring the Prohibiting Future 
Ransom Payments to Iran Act, which is a reaction to, I think, 
what was an egregiously flawed decision by the administration 
to provide hard currency, as you and others have pointed out, 
cash payments, including euros and dollars, not traceable, in a 
way that can be today already buying arms for a number of 
horrific state actors and others like Hezbollah, which we have 
all known have been financed so extensively by the Iranians.
    You know, it just seems like the flawed nuclear arms 
agreement just continues to disappoint on every aspect of its 
implementation--you know, the fact that the ballistic missiles 
were not a part of it; and now Iran is on a tear to develop a 
ballistic missile capability to deliver nuclear arms; all of 
the side deals and secret deals that we don't even know about 
that we then find out about through some investigative 
reporting by some of our news media or by congressional 
oversight; and now this, money being flown in for the hostages.
    I had raised several times during the course of those 
negotiations that the hostages should have been freed without 
any precondition and it should have been done before any kind 
of an agreement was concluded between the United States, the 
P5+1, and we kept being told, oh, that is a side issue, it is 
being done on the sidelines.
    And now we see this terrible ransom payment, which I 
believe, Mr. Chairman, may incentivize other state actors of 
terrorism, as well as terrorist groups and others and nefarious 
organizations all over the world, that believe that the United 
States will pay ransom, and that incentivizes the taking of 
hostages for that very purpose.
    So this is a tourniquet type of bill to say, you should 
have told us, Mr. President, you should have been transparent 
about all of this process, which you have not been, and we want 
this noticing, the transparency, and we want absolutely an end 
to these cash payments to these terrible regimes that kill, 
maim, execute, and rape, like Tehran.
    I yield back.
    Chairman Royce. I recognize Mr. Brad Sherman of California 
to speak on the underlying bill.
    Mr. Sherman. Mr. Chairman, I would hope that we would deal 
with this bill as part of an overall State Department 
authorization bill and that we would deal with it a few months 
from now. This is a highly political issue right now. Rather, 
we need an overall policy about congressional involvement and 
congressional notice if payments of this type are going to be 
made.
    Looking at the bill itself, I don't think it should just be 
Iran. I think it should be all state sponsors of terrorism and 
North Korea. And I know the ranking member has a proposal that 
would broaden this concept. Yes, yesterday it was Iran; 
tomorrow it may be North Korea.
    Second, I think that Iran may not have gotten any 
tremendous advantage by getting this money in cash. Yes, at the 
bottom of the food chain, criminal enterprises deal in cash. 
But at the top of the food chain, they use all their skill to 
turn to cash into bank deposits. And I think that Iran might 
well want this cash in bank deposits, particularly in banks in 
China and other places not entirely friendly to the United 
States.
    I think that it never hurts to reiterate our policy against 
paying ransom. As to the deal that occurred, the simultaneous 
transfer of cash and prisoners on the one hand for getting our 
hostages on the other, I think we may be more concerned about 
the criminals that we released and those under criminal 
investigation that we released, because this does tremendous 
benefit to Iran.
    Iran needs an international network of people skilled in 
evading the arms control. How do you get the centrifuge, how do 
you get the titanium tubes that you need for the nuclear weapon 
of next decade? You get them with a network of people who can 
worm their way into business, can give a civilian front, and 
will ship you these items.
    The release of these criminals helps Iran achieve that in 
two ways. First, these individuals are now available to Iran, 
and they are skilled. Perhaps the most skilled criminals are 
those who have been caught once. They won't get caught that way 
again. But, second, it tells Iran's network around the world, 
if you get caught, we will get you out.
    So there is controversy with this. On the other hand, there 
are those who say, well, we shouldn't have settled the $1.4 
billion financial dispute at the same time as we got our 
hostages back. Imagine how Congress would have reacted if we 
had paid the $1.4 billion and not gotten our hostages back. The 
other thing worse than transferring the money and getting your 
hostages is transferring the money and not getting your 
hostages.
    So these two related and simultaneous deals occurred. They 
are politically hot. We will do a better job of legislating 
early next year when we focus not just on Iran but on all state 
sponsors of terrorism and North Korea and when we focus not on 
that politically charged issue of pallets of cash going to Iran 
but, rather, sit back and say, what should be the procedures 
for payments of this type to be made?
    And, finally, I would point out, as I did to the chairman, 
that there are many instruments, if Iran wants nontraceable 
instruments. There is not just currency and bonds issued by 
sovereigns; there are also corporate bonds and in Europe there 
are plenty of bearer corporate bonds that would serve the same 
purpose. And, you know, I think a bond issued by Siemens is 
just about as valuable as one issued by the German or French 
Government.
    So I think this is a bill that needs a lot of technical 
work, and that would benefit from some time. And it is a bill 
that needs a calm political atmosphere, and that can be 
generated only by some time. I look forward to hopefully 
bipartisan legislation early next year.
    And I yield back.
    Chairman Royce. We will go to Mr. Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman. And thank you for your 
leadership in bringing this before the committee. I think it is 
very important that we take this up, and thank you for this.
    When the $1.7 billion in payments to Iran came to light, 
the Obama administration refused to call those payments what 
they were, which is clearly ransom. They denied it and denied 
it and denied it, and now we know it was true.
    First, the administration wanted us to believe that the 
payment was essentially money that the U.S. owed Iran from the 
days of the Shah.
    When that story didn't work, they tried to tell the 
American people that the money was unsettled claims in the 
Iran-U.S. Claims Tribunal. The administration argued that if we 
didn't pay Iran the money we would lose even more. So, in 
effect, this was supposed to be a bargain. What a deal, right?
    When that story didn't work, the truth finally came out. We 
learned that what we all suspected was, in fact, true. The 
Obama administration paid $1.7 billion to Iran in exchange for 
hostages.
    Once again, the administration's policy toward Iran damaged 
our reputation around the world for resolve, for standing for 
something. This has really damaged our reputation, I think, as 
the administration has done time and again.
    While the Obama administration has a tough time arriving at 
the truth, here are a few things that we do know. Iran 
continues to see terrorism as a legitimate tool of statecraft. 
Iran continues to see anti-Semitism, a denial of the state of 
Israel's right to exist, as normal diplomatic discourse. Iran 
continues to harass our ships in the Persian Gulf. And, just as 
in 1979, the actions of the Obama administration have 
emboldened Iran to see hostage-taking as just another means of 
gaining leverage at the bargaining table.
    However, the ransom payment has been met with bipartisan 
enthusiastic support in one place: In Iran. Hardliners and so-
called reformers in Tehran have celebrated the Obama 
administration's ransom payment. So-called reformers, such as 
President Rouhani, have praised the agreement as evidence that 
engagement works. The head of the Basij, a key component of the 
Iranian Revolutionary Guard, Brigadier General Mohammad-Reza 
Naqdi, argued the payment of $1.7 billion was evidence of 
American intent to infiltrate Iran. Iranian media has covered 
the story with headlines such as ``The Exchange of Four 
American Spies''--spies.
    H.R. 5931, the Prohibiting Future Ransom Payments to Iran 
Act, is guided by a simple principle: The U.S. should never pay 
ransom for the release of our citizens held hostage abroad. 
When you make payments like this, all you do is invite more 
Americans to be held hostage in other countries besides Iran 
around the world.
    So this is a terrible road to go down. That is why our 
history on this has been pretty clear: We don't pay for return 
of hostages. And this goes 100 percent against that. It is 
wrong, it is dangerous, and a lot of people are going to pay a 
price down the road for this.
    And I yield back the balance of my time.
    Chairman Royce. Mr. Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman.
    This bill, H.R. 5931, Prohibiting Future Ransom Payments to 
Iran Act, I think it is clear that it is basically a partisan 
bill, at this point. It is an issue, though, that shouldn't be 
partisan at all, as I think Mr. Engel and Mr. Sherman--and I 
want to really associate myself with many of the remarks of Mr. 
Sherman on this matter. The subject of Iran and congressional 
oversight is one that should unite us, not divide us.
    Now, it is clear that we are in a political season. And 
what has happened in the past, at least with this committee, we 
have often tried to manage to rise above partisan politics in 
the best interests of our Nation. But that is not this bill. 
This bill is clearly a partisan bill that is not made to unite 
but to divide.
    The Wall Street Journal article in August that reported a 
settlement payment to Iran has been used by my colleagues on 
the other side of the aisle as fodder for their convenient 
political spin. The majority quickly turned to talking points 
about the administration's settlement payment being a cash 
ransom payment--this, despite the fact that the Obama 
administration had, in fact, briefed Congress of the $1.7 
billion settlement of a longstanding claim with the Government 
of Iran.
    Let's be clear: Because the payment was in cash doesn't 
mean it was a secret, nor does it mean it was a ransom payment. 
The modality of payment is not the determining factor. Whether 
it was cash, check, or charge, it was not payment for a ransom, 
and it is not different from what has happened in the past.
    Let us also be clear that using leverage when conducting 
diplomatic negotiations is a common and smart strategy and 
another reason why, if you are doing this correctly, we would 
have to hear and talk back and forth to the State Department. 
And I believe, in fact, had the Obama administration not used 
every bit of existing leverage it had to ensure the release of 
Americans, I could imagine that the majority would be raking 
the administration over the coals for failing to successfully 
negotiate. In other words, as Mr. Sherman indicated, had we 
given the money and not gotten any hostages back, you would be 
railing about that.
    Similarly, had the administration not negotiated The Hague 
settlement and ended up ultimately paying a higher price for 
the 1979 failed arm sales, the majority would also point to 
that as a failure.
    For the record, since the establishment of the U.S.-Iran 
Claims Tribunal, all U.S. citizens' claims against Iran that 
were registered under the Algiers Accords have been resolved. 
Americans, as a result, have gotten about $2.5 billion in 
payments. At the tribunal, there are still over 1,000 Iranian 
claims yet to be resolved. These are just the facts.
    So there was no ransom payment, and this bill is an 
unfortunate attempt to play, in my opinion, politics with an 
issue that our diplomats worked very hard to resolve. And, as 
such, I hope the American people look at the totality of the 
circumstances, examine all the facts, and see that regardless 
of the majority's effort to distort the reality, leveraging the 
settlement payment to obtain the best results in concurrent 
negotiations was indeed shrewd and not at all reckless.
    Let me end by saying I agree with Mr. Sherman again. I 
think that if we wait until post-election, where we can sit in 
calm fashion and talk to our State Department and diplomats, et 
cetera, then we will be in a climate where we can resolve this 
issue in a manner that is bipartisan, that is also inclusive of 
not only Iran but all of the nations that are sponsors of 
terrorism. I think Mr. Sherman is absolutely right. Because we 
want to make sure that we have something where we are looking 
at oversight with all of those types of nations that 
proliferate terrorism.
    So I think that, Mr. Chairman, we should hold this bill and 
negotiate this right after the election is over, the beginning 
of the next Congress.
    And I yield back.
    Chairman Royce. Any other Republican members seeking 
recognition on this bill?
    I will recognize myself here for a couple of observations.
    And I think I would just begin by going to the observations 
of the Justice Department, because, in this case, the 
administration ignored its own lawyers. The head of the Justice 
Department's National Security Division warned that Iran would 
see this as ransom and would respond to this by taking more 
Americans hostage. And since this was done in cash--and that is 
the argument here, it being done in cash--we have had three 
more hostages that were abducted while they were in Iran.
    They held the cash--again, this cash was held until the 
hostages left Iran. The State Department now says, well, that 
is leverage. To me, it was textbook ransom. And the Iranians 
viewed it as ransom because I have seen the tapes of their 
comments when this transaction occurred. They bragged about it. 
And, as I said, now more Americans have been taken hostage.
    But if we focus on the bill in front of us today, as a 
practical matter, this bill does two things: One, it provides 
more transparency regarding the U.S.-Iran Claims Tribunal; and, 
two, it prohibits cash payments to the Government of Iran, the 
world's leading state sponsor of terrorism.
    Remember, as the Financial Action Task Force has made 
clear, and I am going to quote from the task force, ``The 
physical transportation of currency''--as in cash--``is one of 
the main methods used to move criminal assets, launder money, 
and finance terrorism.'' The reason that last point, financing 
terrorism, is important to us here is because we are all 
cognizant of the cash that Iran transfers into the hands, or 
has transferred into the hands, of Hamas and continues to 
transfer into the hands of Hezbollah.
    So that is the fundamental question before us. And I think 
our sanctions regime was designed with tribunal payments in 
mind. I would just make this point. The Iran transactions 
sanctions regime contains a number of exemptions from the rules 
so that certain transactions can go forward. And, in this case, 
transactions for tribunal settlements are explicitly authorized 
and would shield any entity involved in such a transaction from 
liability under U.S. law.
    But the administration chose a different course here. The 
administration chose not to license a transaction within the 
international financial system. They chose instead to deliver 
$1.7 billion in untraceable assets, in cash.
    If everything was on the up-and-up and there was no 
connection to hostages, why not go through the process laid out 
in law? Issuing a license, you know? If the administration 
wanted to pay through a bank, it could have. How do we know? 
Because earlier this year the Obama administration paid Iran 
$10 million for heavy water, and that transaction flowed 
through the formal financial system, a bank. We just learned 
this on Monday.
    So, yes, it would have taken a little longer, but the 
dispute this payment was supposed to settle was over 35 years 
old, so what is another month? The only way I see timing coming 
into the play is if this was a ransom for the release of 
Americans. And, hopefully, we won't be doing that again.
    So I wanted to make those points, and I now go to Ms. 
Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair.
    So I want to just start by saying what I think everybody 
here, on the panel up here, would agree, is that we do not 
trust Iran. Probably none of us like to send any money to them 
because they are the number-one state sponsor of terror in the 
world. I won't go into the list of horrible activities they are 
involved in. And I know we all recognize, though, that there is 
a need to fulfill legal obligations on our part if we have to 
transfer funds.
    Mr. Chair, you know, I want to state for the record you 
know I believe that you are an above-excellent, fair chairman. 
With that said, I want to say that I think this bill itself, 
this piece of legislation, is more of a political statement. 
And although I think both the ranking member and the chair, you 
have raised important issues, I would feel more comfortable to 
hear an explanation from the State Department for why they 
acted the way they did.
    And one thing I have learned by sitting at all these 
meetings is this foreign policy stuff is very complicated. And 
I think it would be a more reasoned way for us to proceed, if 
we want to discuss this issue, to bring some people in, whether 
it is from the State Department or think tanks, but some people 
who could give us perspective. And so I would just request both 
to the chair and the ranking member that we be given an 
opportunity to have that kind of hearing.
    And I yield back.
    Chairman Royce. I thank the gentlelady, and we will have 
further discussions with the gentlelady.
    I think Mr. Wilson of South Carolina is next to be 
recognized.
    Mr. Wilson. Thank you, Mr. Chairman.
    I appreciate your hard work and dedication on this issue 
that has a threatening impact on American families. By 
providing the Iranian regime with $1.7 billion worth of nearly 
untraceable foreign cash without the knowledge of Congress, the 
Obama administration has put American families at risk.
    On June 4, 2016, former Under Secretary for Terrorism and 
Financial Intelligence David Cohen testified before the Senate 
Committee on Banking, Housing, and Urban Affairs, accurately 
describing Iran as the world's foremost state sponsor of 
terrorism. Even more troubling is Iran's ranking as the world's 
foremost money launderer, ranking first on the Basel Anti-
Money-Laundering Index.
    This week, I sent a letter to Under Secretary of Terrorism 
and Financial Intelligence Adam Szubin asking for his 
assessment of the far-reaching negative consequences that the 
direct cash transfer may have. I look forward to hearing his 
response, whether or not he can guarantee that this ransom will 
not be used to finance terror.
    Despite the payoff, the chant remains, ``Death to America, 
death to Israel.''
    Again, I want to thank Chairman Royce for his work on 
ensuring that future payments cannot happen again.
    I yield back.
    Chairman Royce. Mr. Sires?
    Mr. Sires. Thank you, Mr. Chairman.
    You know, here we are, a week or two before we leave, and I 
don't see the rush, why we have to do this. I know the optics 
of this are horrible, and I think the administration should 
have been--when it was first released, should have been more 
forthcoming. But I just don't think this is the time to do 
something like this. I think we ought to work together on this. 
We have to work together on this and many issues.
    And I would like to turn over the rest of my time to Mr. 
Brad Sherman.
    Mr. Sherman. I thank the gentleman from New Jersey.
    We keep hearing the word ``ransom.'' We do have to put in 
the record: This was Iran's money. The Shah sent $400 million 
in the 1970s. We held on to it. The Iranian Government was 
entitled to that $400 million, plus interest. And settling that 
would be a good thing to do.
    Second, the fact that it was paid in cash did not 
materially make it more dangerous for the United States. What 
if the money had been wired into a Russian bank? It would have 
been available for Iran to use to buy sophisticated anti-
aircraft systems that would make some future Iranian nuclear 
program invulnerable to attack. Or it could have been wired to 
China to buy large numbers of shoulder-fired anti-aircraft 
missiles, which are the most dangerous thing for a terrorist 
organization to have. Or it could have been wired to a Russian 
or Chinese bank and then converted into euros or other 
currency.
    The use of cash turned out to be terrible politics. There 
is a visual image that sticks in people's minds. The money that 
we paid, as the chairman pointed out, for the heavy water was 
done through the banking system and is less politically 
interesting because there is no picture.
    So there was a simultaneous transfer. Had we transferred 
the money beforehand, then I think this committee would be even 
more outraged. We needed to get our hostages back, and only a 
simultaneous transfer could achieve that.
    So I will yield back to the gentleman from New Jersey.
    Mr. Sires. I don't have any more remarks, Mr. Chairman.
    Chairman Royce. The gentleman yields back.
    Do any other Republican members seek recognition?
    If not, Mr. Engel--oh, Mr. Connolly?
    Mr. Connolly. Just briefly, Mr. Chairman.
    I would like to see our committee try to act, on 
controversial issues especially, in the bipartisan manner that, 
by and large, has characterized, I think, your chairmanship and 
the ranking member's tenure as well.
    It is easy to politically exploit the optics of the 
situation, as Mr. Sherman just indicated, but that belies the 
complexity of a really difficult relationship in which the goal 
is to make sure we cement a non-nuclear Iran going forward.
    If we are serious about this legislation, let's have a 
hearing. Let's hear from the State Department and others in the 
administration to explain the thinking behind the decisions 
that were made.
    And let's also recall, I think, the thoughtful observation 
of Mr. Sherman that this was Iran's money. It is not like it 
was some grant by the United States Government.
    And I do think there are, frankly, you know, two options 
for our committee. We can, in a political season, less than 60 
days out from an election, try to exploit an issue in the hopes 
of some partisan political advantage; or we can do what we 
usually do, or have done in the last few years, in this 
committee and try the more thoughtful, reflective approach to 
make a serious contribution to American foreign policy.
    I don't believe that the bill in front of us does that. I 
believe that Mr. Engel has made a very creative attempt at 
trying to find common ground. I will support Mr. Engel's 
substitute, and, sadly, I will be required to oppose the 
chairman's bill.
    With that, I yield back.
    Chairman Royce. I thank the gentleman for yielding back.
    You know, we do have a standing request before the 
Secretary of State to come before us, and that is being 
scheduled.
    There is some urgency to this issue, in this sense: It was 
not just the $400 million that was cash, it was an additional 
$1.3 billion that was transferred. So this has been an ongoing 
pattern. And because it is an ongoing pattern, I would like to 
see us reach some kind of consensus that this will not be done 
in cash in the future. Because we are basically doing their 
money laundering for them, in a sense, because cash is what 
Hezbollah needs.
    And I have already gone through the motions of passing my 
legislation and having it signed into law, in terms of stopping 
the financial system from allowing Iran to transfer cash to 
Hezbollah. But as long as Iran gets its hands on additional--
they were transferring funds to Hezbollah through a banking 
system. We have shut that down. The only way they can do it now 
is if they transfer cash. And the ones giving them cash is us.
    So, from that standpoint, and because this is a continued 
practice here, not once, but has occurred three times now, I 
think I need to move forward with legislation.
    I understand Mr. Engel has an amendment. And if there are 
no further requests for recognition on the bill, I will go to 
him for his amendment.
    The clerk will report the amendment.
    Mr. Higgins. Mr. Chairman?
    Chairman Royce. Mr. Higgins.
    Mr. Higgins. Yeah, Mr. Chairman, you had said that there is 
a fundamental question before us, and I think the fundamental 
question is this: If the Iran nuclear program wasn't working, 
that is what we would be talking about. Because it is, we 
conveniently changed the subject.
    The Iran nuclear deal is working. Natanz--Iran has put 
19,000 centrifuges in storage under international control. That 
is a win.
    Iran has shipped out 98 percent of low-enriched uranium. 
All Iran nuclear facilities are open to international 
inspections. That is a win.
    Fordow--all nuclear material has been removed in this once-
secret facility. That is a win.
    Reduced stockpile of enriched uranium from 12,000 kilograms 
to 300 kilograms, with a purity rate of no more than 3.67 
percent, not enough to make a nuclear weapon, that is a win.
    The heavy water reactor at Iraq has been filled with 
concrete. That is a win.
    Last year, Iran was 2 months from a nuclear weapon. Today, 
the International Atomic Energy Agency said that they are more 
than a year away from a nuclear weapon. That is a win.
    Until recently, Moshe Ya'alon was the Israeli Defense 
Minister. He said, today, because of the nuclear deal, Iran no 
longer poses an existential threat to Israel.
    When you are losing, you change the subject. And I think 
that is what is going on here, and let's just be honest about 
it.
    I yield back.
    Chairman Royce. Well, will the gentleman yield?
    Mr. Higgins. Yep.
    Chairman Royce. I would just make a couple of points.
    Mr. Higgins. Sure.
    Chairman Royce. The first point is I intentionally avoided 
raising this issue of the Iran deal as part of this hearing 
because I know that that is a bone of contention between 
members and some supported it, some opposed it.
    If you raise the point of how well that deal is working, I 
would just point out to you that German intelligence already 
has reported that Iran was attempting to obtain prohibited 
nuclear capability, in violation of the agreement, by 
approaching their agents, by approaching German industry to get 
around the agreement.
    The second point I would make is that, even as we sit here, 
Iran is working on centrifuges that spin faster and faster and 
faster. Yes, they have figured out a way to set themselves up 
on a schedule where 10 years from now they will have an 
industrial-scale capability in terms of how fast those 
centrifuges will spin and how quick they can produce the 
nuclear material they need.
    And when this agreement expires, on top of it, if you have 
any question in your mind about their long-term intention, 
think for a minute of the ballistic missiles that they continue 
to produce. And as opposed to the talking points we saw at the 
time, when we thought there was going to be an 8-year 
prohibition on delivering ballistic missiles or on working on 
ballistic missiles or the 5-year prohibition that was supposed 
to be on the conventional arms transfer, they are in the 
process right now of developing ballistic missiles. And you can 
see on the side of those missiles, in Farsi, the words ``Israel 
must be destroyed.'' And you go over to the other side of the 
missile and see in the photograph; they put it in Hebrew just 
in case you didn't get the message.
    So I don't think there is any question of where Iran is 
headed here and the position they are going to be in, or of the 
fact that they did approach German agents with the intent of 
circumventing the agreement.
    So I meant to resist the temptation to get into a debate 
about this, because this hearing is not about that subject. But 
since you raised the issue, I would just caution that the 
intention of the Iranians in all of this is transparently 
obvious to anybody that is reading their news or listening to 
their leader talk about his long-term desire to annihilate 
Israel, who is just the little Satan in his equation. The big 
Satan is the United States.
    But back to the question at hand. The question at hand is 
whether or not we are going to try to prohibit the transfer of 
cash to this regime.
    Mr. Higgins. Would the gentleman yield for just a final 
thought?
    Chairman Royce. I will definitely yield.
    Mr. Higgins. In that part of the world, there is the 
morning after, and there is the morning after the morning 
after. And I think that, despite 1 year ago, all the 
controversy regarding whether or not there would be compliance 
with this plan has eroded significantly.
    It is not perfect. It is not black and white; there is a 
lot of gray. There is nuance in foreign policy. But the fact of 
the matter is, until recently, the Israeli Foreign Minister 
says that Iran no longer poses an existential, a standout 
threat to Israel because of the efficacy of Iran's compliance 
and the international monitoring system that was put in place. 
That is a major, major victory.
    And I am simply saying, Mr. Chairman, with all due respect, 
that if that plan wasn't working today, that is what we would 
be talking about today. Because it is, that is why we are not.
    Chairman Royce. Without objection--I thank the gentleman.
    Without objection, Mr. Weber is recognized to speak on the 
underlying bill.
    Mr. Weber. Thank you, Mr. Chairman.
    I am really amazed at the discussion. We are told that this 
is a political season. So do we shut down all bills during a 
political season?
    We are told that this is partisan, it has all the 
appearance of being nothing more than partisan. And in keeping 
with the political-season idea, I remember that during the last 
two--because there is a Presidential campaign going on, 
ostensibly, I suspect--in the last two Presidential campaigns, 
how George Bush was brought up for the war on Iraq, and 
everybody had to weigh in on whether they would have agreed 
with the war on Iraq.
    That notwithstanding, I would remind those on the left, we 
live and exist and work in a political world.
    Now, Secretary of State John Kerry was here months and 
months and months ago, and we had this discussion with him, he 
and I did, a back-and-forth exchange. And I said, why wouldn't 
we demand the hostages back before the Iranian nuclear giveaway 
was put into place? His response was he didn't want them to be 
pawns.
    Turns out they were pawns, and some of the most expensive 
pawns in history, in my opinion, and not just in terms of 
billions of dollars of cash, but for two reasons: Number one, 
obviously, they can export terrorism now in a way that they 
couldn't before they got the money. Secondly, not just the 
billions of dollars, they will now take and have already taken 
more Americans.
    One of the comments earlier was, well, it would have been 
worse if we would have given them the cash and not gotten the 
hostages back, as if somehow that made the deal more palatable. 
Well, Americans are tired of being misled by the White House, 
by the State Department, and anybody else, for that matter. 
What about the lying and the misleading by the White House?
    Political season? Are you kidding me? Americans want to 
know and deserve the truth all the time, not just when it is a 
political season. They want during this political season and 
every other time, as far as I can tell, somebody to stand up 
for America, protect them from terrorism, and protect them from 
out-of-control bureaucrats and a misleading, dare I say lying 
White House and maybe even the State Department. Americans 
deserve that.
    Mr. Chairman, I yield back.
    Chairman Royce. You know, a lot of this is water under the 
bridge, all right? Regardless of our opinions, a lot of it is 
water under the bridge. To me, the only question, 
prospectively, going forward, is whether or not we are going to 
discontinue the process of paying cash. That is the intent of 
the bill.
    And I think Mr. Engel has an amendment. The clerk will 
report the Engel amendment.
    Ms. Marter. Amendment in the nature of a substitute to H.R. 
5931, offered by Mr. Engel.
    Strike all after the enacting clause and insert the 
following:
    Section 1. Short Title. This act may cited as the 
``Restrictions on Payments to State Sponsors of Terrorism 
Act.''
    Section 2. Restrictions on Payments to State Sponsors of 
Terrorism. (a) In General.--No agency or instrumentality of the 
United States Government may make a payment or enter into an 
agreement to make a payment, to an agency or instrumentality of 
a government <greek-l>or  deg.of a state sponsor of terrorism, 
or an agent acting on behalf of such a government, in 
settlement of a claim or judgment against the United States, 
unless, not less than 5 days prior to making such payment or 
entering into such agreement, the President submits to the 
appropriate committees in Congress in writing----
    Chairman Royce. Without objection, the amendment is 
considered as read.
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Royce. The Chair recognizes the author to explain 
the amendment.
    Mr. Engel. Thank you, Mr. Chairman. My amendment is fairly 
straightforward and in my view goes to the core problem that 
has arisen from this Iran payment situation, which is Congress' 
oversight role. As I said in my opening, the reality is that 
there, that there will be more payments under our Algiers 
Accords obligations, and frankly, I don't want a repeat of what 
happened. This committee should not be finding out after the 
fact how and when these payments are taking place, so my 
amendment says simply that payments like this cannot happen 
unless Congress is notified in advance. The bill contains a 5-
day notification. I certainly would be open to negotiate a 
larger amount of time.
    It would apply to payments not just to Iran, but to any 
state sponsor of terrorism, plus North Korea. It would also 
apply to all forms of payment--cash, check, wire transfer, you 
name it--because I don't think it really matters. A payment is 
a payment. Whether it is cash or not, it doesn't really matter. 
And it says, claims, settlements, and payments should be 
publicly reported in the Federal Register. So this amendment 
also strips out references to promissory notes because, again, 
the United States hasn't issued promissory notes to Iran. That 
is not the way these payments have worked. My language 
preserves certain key provisions, a requirement for periodic 
reporting to Congress on activity under the Algiers Accords, an 
exemption for our intelligence activities, and some technical 
language.
    I have also gotten rid of the word ransom in this bill. Now 
whether you believe the payment was a ransom or not, we know 
this is a political argument. I think we should focus on 
substance and not derail ourselves over something on which we 
are simply not going to agree, so I think this is the right 
approach. It strengthens our oversight, and it provides greater 
transparency, and I think it would send a strong bipartisan 
message that Congress and the Foreign Affairs Committee need to 
be a part of the payments process going forward.
    We have worked very long on this committee. Under your 
leadership, Mr. Chairman, with consensus, I hope we can sit 
down early next year, put our heads together, and come up with 
language that will get to what both you and I agree are abuses 
that should not have happened and should not happen in the 
future. The fact that this bill has only Republican co-
sponsors, 50 of it, sends a message to us that it is not a 
bipartisan bill, and that it is really just a messaging bill to 
a very large extent.
    So I know you feel very strongly about this, as do I, and I 
would hope that what we have been doing for the past several 
years, we can continue to do when we come back next year, and 
that is, work bipartisanship and get at what you and I have no 
disagreement on, the fact that the way the Iran payments were 
made left a lot to be desired, and Congress should not be kept 
out of the loop. We have to play a very, very important role. 
So I ask that all members support my amendment, and I yield 
back.
    Chairman Royce. I thank the gentleman, and let me speak to 
the ranking member's substitute, which I will regretfully 
oppose. And I hope that maybe during the process, or Rules 
Committee, we can try to reach further accord here. But there 
is a common theme between the underlying bill and the ranking 
member's substitute, and that theme is the need for greater 
transparency, the need for greater congressional involvement in 
these decisions, and that is a must.
    Leading up to the day that this settlement was announced, 
the administration had repeatedly briefed Congress on Iran and 
the nuclear deal. Yet, despite having innumerable opportunities 
to do so, the Obama administration never raised this potential 
financial settlement with this committee. So this payment came 
out of the blue. If diplomats were working overtime on a 
settlement, why not tell the committee of jurisdiction of the 
possibility? And if the goal of this settlement was merely to 
put to rest a decade's-old dispute over an aborted arms sale, 
as we were told after the fact, they why the secrecy?
    The administration has intentionally left us--that is, this 
committee--they have intentionally left us in the dark, and it 
hasn't only been on this issue. Let me add that. Cuba is 
another example that comes to mind, and Mr. Engel raised the 
legitimate point of North Korea, another example where, in a 
prior Republican administration, we found ourselves being left 
in the dark. The only way we have gotten information is through 
continued congressional questioning and good press reporting.
    Both the underlying bill and the ranking member's 
substitute require the administration to be more transparent 
with Congress and the American people about how it engages with 
the Tribunal. If future settlements are truly a good deal for 
American taxpayers, these requirements should be welcomed. They 
should not be a burden. The goal of the underlying legislation 
is to ensure that a Tribunal that has been in place since 1981, 
and has operated more or less successfully, cannot be 
manipulated by this or the next administration. And here the 
two of us agree, but I am afraid that the substitute does not 
give me enough comfort in that area.
    But there is another larger problem, and that is this. That 
is because this proposal that we are talking about, this 
amendment before us, unlike the underlying bill, contains no 
restrictions on the way in which Iran could be paid. I was 
raising questions about this $1.7 billion payment when it was 
first made, and, quite frankly, not too many of us were focused 
on it until it was revealed that it was paid in cash. That is 
because everyone knows that cash is the conduit of all sorts of 
illegal behavior, such as the payment of cash from Iran to 
Hamas and the payment of cash from Iran into the hands of 
Hezbollah, a recurring problem. And that is why the world's top 
financial body for money laundering warns that moving cash is 
one of the main methods used to move criminal assets, launder 
money, and finance terrorism, which is exactly why the bill I 
introduced bans the transfer of cash to the Iranian regime, 
until it stops sponsoring terrorism and ends its money 
laundering. Regretfully, the substitute does not contain such 
restrictions, so I will oppose it.
    Other members seeking recognition? Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman. Mr. Chairman, I want 
to commend you for all that you have done to ensure that the 
committee has played an active oversight role, both during the 
Iran nuclear negotiations and since the agreement was entered 
into, and for the myriad of Iran's other bad behavior and 
dangerous behavior. I also want to thank the chairman for his 
continued and vocal support for the return of my constituent, 
Bob Levinson.
    As Ranking Member Engel noted, this committee has been a 
model for bipartisanship, particularly in the way we have 
approached legislation dealing with Iran, and I want to thank 
Ranking Member Engel for offering his amendment, and I offer my 
support for it. By requiring the President to notify Congress 
no less than 5 days before making payment for any judgment or 
settlement to any country designated as a state sponsor of 
terrorism or North Korea, Mr. Engel's amendment will broaden 
congressional oversight of the international claims process and 
ensure that the House of Representatives is fully informed on 
all potential payments.
    I share the concerns of my colleagues, that the mechanism 
of payment for this particular settlement was made without 
informing Congress at the time of the payment, and I agree with 
the chairman that Iran should not be using United States money, 
or any funds gained from sanctions relief, to fund its terror 
activities. Since coming to Congress, I have been extremely 
vocal about the need to crack down on Iran's dangerous 
behavior. I have sat at this dais and questioned members of 
this administration on exactly how we will track funds Iran is 
receiving from sanctions relief under the JCPOA to make sure 
they are not being used to support terrorism. I have introduced 
legislation to help Congress impose swift sanctions on Iran for 
its illegal ballistic missile tests, and I have sat here for 
6\1/2\ years and implored Iran to return my constituent, Bob 
Levinson, the longest-held American, who went missing in Iran 
9\1/2\ years ago and remains missing to this day.
    Let's be clear. It is the policy of this administration 
that the United States does not pay ransom for its citizens, 
and to my knowledge, no such ransom payment occurred. Yet that 
is the very premise on which this underlying bill is crafted, 
as the title indicates, and that is why I have to oppose the 
bill and support the Engel substitute. The notion that the 
United States delivered pallets of cash as ransom for the 
release of our citizens is simply false. Moreover, the 
underlying bill risks putting the United States in violation of 
our legal obligations under the Algiers Accord, which requires 
the U.S. and Iran to bring claims to the Iran-U.S. Claims 
Tribunal. This process has yielded $2.5 billion for American 
claimants, and by including a prohibition on the U.S. providing 
promissory notes to the Government of Iran, but without 
providing for a legal definition of promissory note, this could 
be interpreted as barring any payment from the U.S. to Iran 
without a license. Prohibiting the settlement of any claim 
until the President can certify that the funds paid are not 
supporting terrorism would likely prevent the United States 
from reaching a settlement figure that would likely be 
significantly less than a judgment, as was the case with this 
$1.7 billion settlement, thereby, under those terms, costing 
the U.S. taxpayers more money.
    Ranking Member Engel's substitute amendment would carry 
over the provision from the underlying bill that requires 
reporting to Congress on claims, settlements, and payments to 
Iran, enhancing Congress' visibility on any transfers of funds 
to Iran going forward, and giving us the opportunity to have a 
say.
    We have done meaningful work in this committee under the 
leadership of Chairman Royce and Ranking Member Engel, and it 
is because of this committee that Iran faced unprecedented 
economic sanctions. It is because of this committee that 
members of Iran's Revolutionary Guard Corps, who direct the 
funding of terror and who commit egregious human rights 
violations, remain sanctioned. And it is because of this 
committee that banks continue to be wary of dealing with Iran, 
and Iran is still unable to fully access the international 
financial market or United States dollars.
    When we work together on this committee, on these issues of 
critical importance, the country is stronger and the country is 
safer. And when the United States leads by example and upholds 
its international obligations, this country is stronger and 
safer. That is what this Engel amendment will do. That is why I 
support it, and I urge my colleagues to do the same. I thank 
you, Mr. Chairman, and I yield back.
    Chairman Royce. Now I will just recognize myself for a 
point there. I want to make it clear that this bill does not 
withdraw us from the Hague Tribunal or undermine the Hague 
Tribunal, and I will explain why. First, this bill requires the 
administration to be more transparent with Congress and with 
the American people about how it engages with the Tribunal. If 
future settlements are truly a good deal for American 
taxpayers, this requirement should be an asset, not a burden. 
And while this bill does prevent the United States from paying 
a Tribunal award or settlement in cash, that should not be a 
problem. As the Associated Press recently reported, there is 
little precedent for using cash to pay for such a settlement. 
And if the United States has to make payment to Iran in the 
future for whatever reason, such a payment should be processed 
through the formal financial system. That is how the Hague 
Tribunal settlements have been handled for the last 35 years, 
and that is how it should work in the future, and that is what 
this bill also ensures.
    Other members seeking recognition? Mr. Meeks.
    Mr. Meeks. Mr. Chairman, I am in strong support of the 
ranking member's amendment, because it seems to me that what we 
should be really focused on, and it should not matter whether 
it is a Democratic President or a Republican President, is 
congressional oversight, to make sure that we are, and as his 
bill so states, at 5 days' notice, we are an equal branch of 
government, and we should have oversight. Clearly the title of 
this bill is saying that there was a ransom paid, and it is 
alleging the fact that whether it was cash, whether it was 
check, whether it was charged, that the money was utilized for 
a ransom. And that is not the case because the question then 
would be if there were no hostages and this money was just 
simply paid, then would we be sitting here today? Well, if we 
did not have oversight, then that, too, would be incorrect, and 
what Mr. Engel's amendment says is we should have oversight at 
all times.
    But why this becomes a political debate is that we are now 
debating whether or not these payments were tantamount to 
ransom when, in fact, as Mr. Sherman indicated earlier, this is 
Iran's money, and it is money that we were going to have to 
pay, and we just happened to, in my belief, had a good deal in 
negotiating the cost because it saved taxpayers' dollars.
    And so we are now mired into a political dispute as opposed 
to substance as to what this committee has been doing under 
your leadership, Mr. Chairman, as well as the ranking member, 
to make sure that we have the correct congressional oversight 
so that the wool is not pulled over our eyes. But it becomes a 
political argument--that is what we are in now--based upon the 
very title of this bill.
    So I strongly support Mr. Engel's amendment, which I think 
accomplishes what all of us on this committee in a bipartisan 
way should want, that we are going to make sure that we have 
oversight, no matter who the President, no matter what the 
party. This committee is going to work on the best interests of 
the United States and to make sure that things are done 
properly.
    Mr. Connolly. Would my friend yield?
    Mr. Meeks. I yield to the gentleman.
    Mr. Connolly. The point you are making about ransom, do I 
understand the point you are making is that when you have used 
such a highly-charged emotive word, you have clearly prejudged 
the situation, and that is what we are being asked to vote on 
when that is in the title of a bill?
    Mr. Meeks. Absolutely.
    Mr. Connolly. Is it also true that this payment was made 
about 8 months ago?
    Mr. Meeks. That is correct.
    Mr. Connolly. And all of a sudden, we are marking up a bill 
because it is urgent, and we are doing it, if I understand 
correctly, before we have a hearing and hear from the State 
Department. We are actually waiting for the State Department to 
get back to us, and somehow there is some urgency, even though 
8 months have transpired?
    Mr. Meeks. That is absolutely correct. We have had no 
testimony, no witnesses, no hearings or anything of that 
nature, so it looks that this is a political bill.
    Mr. Connolly. Can my friend, in any way, identify what the 
nature of the urgency is, that apparently didn't occur in the 
previous 8 months?
    Mr. Meeks. I haven't a clue.
    Mr. Connolly. Could my friend speculate that it might have 
something to do with the fact that we are less than 60 days 
away from the presidential election?
    Mr. Meeks. I think that there is an election on November 
the 8th.
    Mr. Connolly. I thank my friend for illuminating my 
understanding.
    Chairman Royce. I recognize myself here. Does the gentleman 
yield back?
    Mr. Meeks. I yield back.
    Chairman Royce. On a couple of points. The first point 
would be that after we became aware of this conduct 8 months 
ago, we subsequently have become aware of something we weren't 
informed of at the time. And it is only through our repeated 
questions and some good press work that we know that not only 
was the original $400 million paid of ransom--and I call it 
ransom, because that is what Iran demanded. They demanded a 
ransom. I know that because I watched the translations of the 
Iranian television stations. And so this doesn't occur in a 
vacuum. I know that, and I know the administration knew that 
paying ransom was against longstanding U.S. policy. They knew 
that that might provoke an outcry, so they settled this 
decades'-old dispute, 35-year-old dispute, over an arms sale 
that was called off after the Islamic Revolution in 1979, and 
that allowed the Iranians to go home and say that they got a 
ransom and it allowed the Obama administration to come home and 
denied they paid a ransom.
    Here is the problem, one of them: The Justice Department, 
Obama's own Justice Department, called the President's bluff. 
The point of the no-concessions policy is to remove the 
incentive to take Americans hostage. And the Justice Department 
warned, that if Iran thinks they got a ransom, then they will 
take more hostages. That is the point. That is what I want to 
discourage with this legislation. I do not want another 
administration to pay Iran cash one more time because it is 
ransom. And that is exactly what happened, and the subsequent 
act of taking three more American hostages confirms exactly the 
policy that Justice warned about. So from my standpoint, I want 
a deterrence out there for this administration and future 
administrations. And, yes, I have tried to get the Secretary of 
State up here before this committee to talk about this, and we 
are still working to schedule his appearance, and I am hopeful 
that we will succeed in that.
    Mr. Zeldin of New York.
    Mr. Zeldin. Well, thank you, Mr. Chairman. I don't know if 
one of the gentlemen who said this isn't a ransom and that we 
owed them money would be interested in answering this question. 
Says who? For decades, for decades, this was a disputed claim. 
I know why, and I also know about our counterclaims, so when 
did we first admit that this money was owed and that they 
didn't owe us anything?
    Mr. Sherman. I don't think we have ever said that they 
don't owe us anything, and there has been work that we have 
done on whether the hostages taken at the Embassy have the 
right to sue the Iranian Government, but there is no dispute 
that $400 million of the Shah's money was sitting under 
American control since the 1970s. And, in fact, most of the 
calculations I have seen would indicate that we have paid less 
interest than could have been earned in other investments. So I 
know to go from $400 million to $1.1 billion sounds like the 
rate of return on that is rather low.
    Mr. Zeldin. Reclaiming my time. A few things there. So 
first off, we received money from the Iranians for a purchase 
that they cancelled. So we were spending a lot of money to 
build pretty serious weapons systems that they cancelled. 
Furthermore----
    Mr. Sherman. Will the gentleman yield----
    Mr. Zeldin. Let me just finish my point. It is my time.
    Mr. Sherman. I believe we cancelled it.
    Mr. Zeldin. Then in February 1979, it was restructured, the 
debt that they were owed. Then they take our Embassy, and 15 
days after they take our Embassy, the Iranians say that they do 
not owe any foreign obligations to anyone. Then for decades, 
for decades, we dispute this claim while having our own 
counterclaim. So they ask for $400 million. We are asking for 
$817 million in the counterclaim because they were supposed to 
protect the weapons systems that we had given them.
    In addition to that, there was $400 million of claims of 
United States citizens in U.S. courts against Iran, judgments 
against the Iranians, that were subrogated as part of that $400 
million. So we have a disputed claim for decades with regards 
to what Iran was asking from the United States. But at the same 
exact time, we are asking for $817 million because they failed 
to protect the weapons systems. They took our Embassy. They 
said that they didn't owe any foreign obligations. They owe 
$400 million to the United States for claims of United States 
citizens, so we can put everything on balance. It comes back to 
the question, why is the net that we owe them $400 million?
    Mr. Sherman. U.S. citizens, I believe, have collected $2.5 
billion in settlements from Iran. I support efforts for more to 
be paid. And you can say that there was a tactical advantage in 
the various lawsuits and claims for us to continue to hold 
Iran's money. But this, if you look at this money in isolation, 
it is my understanding that we cancelled the contract, and if 
we hadn't, we should, because the weapons that we had agreed to 
give the Shah should never have been in the hands of the 
Supreme Leader who took over afterwards.
    Mr. Zeldin. Actually, the timeline is that the Iranians 
fell behind in their payments, and in February 1979, the entire 
deal was restructured. But, again, so the whole thing that 
caused this issue was the Iranians falling behind in their 
payments. But, again, you have $400 million sitting in accounts 
to pay claims. You have $400 million sitting in an account. The 
Iranians have claims against the United States. The United 
States has claims against Iran. Both sides are disputing it. I 
am asking, so what happened with our $817 million claim against 
the Iranians?
    Mr. Sherman. I believe that is still pending and whether it 
is Iran or any other sovereign, the State Department uniformly 
opposes the suits against sovereign. If we look at this issue 
by itself----
    Mr. Zeldin. But we can't. We can't look at it.
    Mr. Sherman. If you are going to say you can never settle 
anything until you----
    Mr. Zeldin. The $400 million that was sitting in that 
account was not there for one claim. That $400 million was not 
sitting in that account to settle one claim. It was to pay 
claims in front of the Tribunal. So, yes, the Iranians had 
claims against the United States, but also the United States 
had claims against the Iranians. Part of that had to do with 
subrogated claims of hundreds of millions of dollars $400 
million actually, that the Iranians owed the United States. I 
yield back the balance of my time----
    Chairman Royce. Any other Democratic members? Ms. Frankel.
    Ms. Frankel. Thank you. I have just a couple questions to 
each of you, to the chairman and ranking member. So first, let 
me ask both the questions, and then you can answer. Mr. 
Chairman, just on the underlying bill, there is a requirement 
that there is a certification that funds provided to Iran under 
the settlement will not be used to provide support for foreign 
terrorist organizations, the regime of the Bashar al-Assad and 
other destabilizing activities. And while I agree with that, my 
question to you, are you kidding? Do you really think a 
President of the United States can, in good faith, ever certify 
that with Iran? No, I don't think so, because it is my opinion 
that any money that we give to Iran, legally or not legally, 
that they are going to do bad things with it. So I mean, I 
don't even want to ask my President to certify something that 
is totally, I think, impossible. So that is a question. Do you 
really think that a President----
    Chairman Royce. Let me respond just very briefly. What I am 
trying to do here is to indicate that if it is done in cash, 
you cannot certify. If it is done in a system with all of the 
regulations that the international financial system has on Iran 
to make sure that they cannot do terror finance, and the bills 
that we have passed, you can then certify, you can certify that 
it complies with those agreements, but cash you cannot. So that 
is the distinction I am trying to make.
    Ms. Frankel. And just to Mr. Engel, I want to ask you about 
your amendment, which is, you have a 5-day notice requirement. 
Is that correct? Are there circumstances, you think, where that 
would not--there would be some type of emergency or something? 
I am just wondering about the 5 days. What is the significance 
of 5 days? Is it possible that there would have to be an 
exception to that?
    Mr. Engel. Well, the 5 days, and as I said in my remarks, I 
would be willing to entertain a more lengthy period of time. It 
was just an attempt to say that the main thing we want to get, 
or I would like to get at, is the fact that there was no notice 
to Congress, and that Congress was not informed about it until 
we heard about it with everybody else, and that really 
shouldn't stand. So whether we want the President to give us 5 
days or 10 days or 15 days, that could be negotiated. But the 
fact is that they should give us advance notice.
    Ms. Frankel. If I may, just to follow up, I understand the 
longer period. But could there be a circumstance where it would 
have to be shorter? That is what I am asking you. I mean, is it 
possible that there would have to be some kind of exception for 
some kind of waiver?
    Mr. Sherman. Will the gentlelady yield?
    Ms. Frankel. Yes, I would.
    Mr. Sherman. I would point out that in an emergency 
situation, Congress could meet and authorize a payment as 
quickly as we could vote. So while there may be a 5-day 
requirement, if Congress meets and passes something, it could 
be on the President's desk in a few hours.
    Ms. Frankel. I mean, I wouldn't rely on this Congress to 
move fast on anything. I mean, really, I think grass grows 
quicker than this Congress moves. Really.
    Mr. Engel. I think there is no significance in terms of the 
time other than we wanted to make the point that the executive 
branch should be notifying the legislative branch. And I think 
if we are worrying about emergencies or whatever, we could 
always build it into it. What I hope would happen, because, 
look, no matter what happens here, none of this is passing this 
year. I mean, it is not going to become law this year, so I 
would hope that we have had a discussion. There are concerns on 
both sides, that we put our heads together, that we do have the 
hearings, because I know hearings are important to all of us, 
to you, to me, to the chairman, and that we come back and put 
our heads together and come up with a bipartisan bill, which is 
the way this committee works the best.
    You know, the fact that this bill contained only Republican 
co-sponsors, you know, indicates to me that there really wasn't 
an attempt to try to build bipartisan consensus for this bill. 
I think we can. I think we should. I think that 80 to 90 
percent of our concerns are identical, and I think that we 
could hopefully hash something out in the best tradition of 
this committee the way we have been doing it for the past 4 
years.
    Ms. Frankel. Thank you. I will just say that I am happy to 
support your amendment with a promise that as it moves along, 
there is some smoothing out, if there is some ability to have 
some exceptions in an emergency.
    Mr. Engel. Well, I would hope that, again, that this would 
lead to bipartisan negotiations, and I am sure we would take 
all these contingencies into account.
    Chairman Royce. Mr. Yoho is seeking time, of Florida.
    Mr. Yoho. Thank you, Mr. Chairman. And I just kind of want 
to bring this back to why we are here today, and I agree with 
Ranking Member Engel that we should have something in the works 
for North Korea or any other country that we may go through 
this again. But the reason we are here today is because this 
administration chose to act unilaterally against his own 
adviser and State Department's counsel, and they delivered $400 
million in cash.
    In addition, the Iranian Government had the audacity to 
request it to be in unmarked bills, and they are the leading 
state sponsor of terrorism and money laundering. And for that 
reason, that is why we need to pass this bill today. It is not 
political. It is because we are being forced into this so it 
doesn't happen again, and I look forward to voting yes on your 
bill. I yield back.
    Chairman Royce. Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. Mr. Chairman, I 
would ask unanimous consent that an article printed in the New 
York Times on the U.S. and Iran dated November 28, 1991, be 
entered into the record.
    Chairman Royce. Without objection.
    Mr. Connolly. And let me just say why. You know, if you 
listen to some of the comments, you would think a unique 
development has occurred that only President Obama and his 
administration have engaged in in terms of cash payments to the 
Government of Iran. This article in 1991 describes a payment 
made by then-Republican President George H. W. Bush for a total 
of $278 million to the Government of Iran and quotes the 
administration at that time of denying that it was ransom for 
the release of two hostages, Anglican Terry Waite, and American 
Thomas Sutherland, from Lebanon held by Iranian-based 
kidnappers. It might also be pointed out that----
    Chairman Royce. Would the gentleman yield?
    Mr. Connolly. Just 1 second, Mr. Chairman. This money was a 
payment for undelivered Iranian-owned, American-made military 
equipment dating back before the 1979 Islamic Revolution. I 
don't remember Democrats accusing George H. W. Bush of ransom 
or of somehow doing something inimical to U.S. interests. The 
same courtesy, it seems to me, ought to be shown to our 
Government. I will yield to the chairman, but then I am going 
to yield the balance of my time to Mr. Sherman, if he wishes 
it, to be able to respond, because he was not allowed to, to 
Mr. Zeldin.
    Chairman Royce. Well, we will let Mr. Sherman respond.
    Mr. Connolly. As a courtesy, I certainly would yield.
    Chairman Royce. Subsequently I will respond. Mr. Sherman, I 
want to make sure you get your time to respond.
    Mr. Sherman. I think I made my point. One could have taken 
the position that we don't make any deal with Iran on any issue 
until all matters are resolved, and until Iran becomes a 
liberal democracy. I think very few people have taken that 
position. Prime Minister Netanyahu said we should have a deal 
with Iran on the nuclear issue. He just wanted what he 
described as a better deal. Who knows whether that better deal 
could have been developed or not, but no one that I, very few 
people that I know have have said you can't have a deal with 
Iran on the settlement of a $400 million claim until Iran 
settles with us on the hostages that were taken at the Embassy, 
or until Iran settles with us on their support for terrorism.
    This is a complicated relationship. We may have to reach 
deals one at a time. And the $400 million, I don't think we had 
a claim to say that we get to keep the money because Iran fell 
behind on its contract payment, perhaps under the Shah. The 
fact is whether Iran did or did not cancel the contract, we 
would have and should have cancelled it because the weapons 
that we were going to sell the Shah should never have been 
delivered to this Islamic republic.
    So we cancelled, or should have cancelled, or the contract 
was cancelled. We owed the $400 million. $400 million in the 
1970s would accrue far more than $400 million--would be well 
over $1 billion today. We reached a settlement on that. It was 
simultaneous with a settlement that got three of our hostages 
released. And the only thing worse than reaching a settlement 
on that deal simultaneous with the release of our hostages 
would have been if we had reached a settlement on this $400 
million plus interest, and not gotten our hostages released 
from Iran. And with that, I yield back my time.
    Mr. Connolly. I yield to the chairman. I meant no 
discourtesy, Mr. Chairman.
    Chairman Royce. I would just point out that for many, many 
years, including during the Bush administration, Iran has 
operated under a certain modus operandi, and that modus 
operandi--I can tell you how they see it. They see it as 
ransom, and that intention has been to take Americans and get 
ransom. And under this legislation, it will no longer be 
possible for them to get that ransom in cash, and there is a 
very compelling reason we don't want them to continue the 
practice, and that is because of their funding of Hamas and 
Hezbollah. I would just make that point. And if there are no 
further requests for recognition, the question occurs on Mr. 
Engel's amendment. All those in favor, say aye. All those 
opposed, no. In the opinion of the Chair, the noes have it.
    Mr. Connolly. Mr. Chairman, I ask for a recorded vote.
    Chairman Royce. On that, we will have a recorded vote. The 
clerk will call the roll.
    Ms. Marter. Mr. Chairman?
    Chairman Royce. No.
    Ms. Marter. Mr. Chairman votes no.
    Mr. Smith?
    Mr. Smith. No.
    Ms. Marter. Mr. Smith votes no.
    Ms. Ros-Lehtinen?
    [No response.]
    Ms. Marter. Mr. Rohrabacher?
    [No response.]
    Ms. Marter. Mr. Chabot?
    Mr. Chabot. No.
    Ms. Marter. Mr. Chabot votes no.
    Mr. Wilson?
    Mr. Wilson. No.
    Ms. Marter. Mr. Wilson votes no.
    Mr. McCaul?
    Mr. McCaul. No.
    Ms. Marter. Mr. McCaul votes no.
    Mr. Poe?
    [No response.]
    Ms. Marter. Mr. Salmon?
    Mr. Salmon. No.
    Ms. Marter. Mr. Salmon votes no.
    Mr. Issa?
    Mr. Issa. No.
    Ms. Marter. Mr. Issa votes no.
    Mr. Marino?
    Mr. Marino. No.
    Ms. Marter. Mr. Marino votes no.
    Mr. Duncan?
    [No response.]
    Ms. Marter. Mr. Brooks?
    Mr. Brooks. No.
    Ms. Marter. Mr. Brooks votes no.
    Mr. Cook?
    Mr. Cook. No.
    Ms. Marter. Mr. Cook votes no.
    Mr. Weber?
    Mr. Weber. No.
    Ms. Marter. Mr. Weber votes no.
    Mr. Perry?
    Mr. Perry. Absolutely not.
    Ms. Marter. Mr. Perry votes no.
    Mr. DeSantis?
    Mr. DeSantis. No.
    Ms. Marter. Mr. DeSantis votes no.
    Mr. Meadows?
    Mr. Meadows. No.
    Ms. Marter. Mr. Meadows votes no.
    Mr. Yoho?
    Mr. Yoho. No.
    Ms. Marter. Mr. Yoho votes no.
    Mr. Clawson?
    [No response.]
    Ms. Marter. Mr. DesJarlais?
    [No response.]
    Ms. Marter. Mr. Ribble?
    Mr. Ribble. No.
    Ms. Marter. Mr. Ribble votes no.
    Mr. Trott?
    Mr. Trott. No.
    Ms. Marter. Mr. Trott votes no.
    Mr. Zeldin?
    Mr. Zeldin. No.
    Ms. Marter. Mr. Zeldin votes no.
    Mr. Donovan?
    Mr. Donovan. No.
    Ms. Marter. Mr. Donovan votes no.
    Mr. Engel?
    Mr. Engel. Aye.
    Ms. Marter. Mr. Engel votes yes.
    Mr. Sherman?
    Mr. Sherman. Aye.
    Ms. Marter. Mr. Sherman votes aye.
    Mr. Meeks?
    Mr. Meeks. Absolutely yes.
    Ms. Marter. Mr. Meeks votes yes.
    Mr. Sires?
    Mr. Sires. Yes.
    Ms. Marter. Mr. Sires votes yes.
    Mr. Connolly?
    Mr. Connolly. Aye.
    Ms. Marter. Mr. Connolly votes yes.
    Mr. Deutch.
    [No response.]
    Ms. Marter. Mr. Higgins?
    Mr. Higgins. Yes.
    Ms. Marter. Mr. Higgins votes yes.
    Ms. Bass?
    [No response.]
    Ms. Marter. Mr. Keating?
    Mr. Keating. Yes.
    Ms. Marter. Mr. Keating votes yes.
    Mr. Cicilline?
    [No response.]
    Ms. Marter. Mr. Grayson?
    Mr. Grayson. Yes.
    Ms. Marter. Mr. Grayson votes yes.
    Mr. Bera?
    Mr. Bera. Yes.
    Ms. Marter. Mr. Bera votes yes.
    Mr. Lowenthal?
    Mr. Lowenthal. Yes.
    Ms. Marter. Mr. Lowenthal votes yes.
    Ms. Meng?
    Ms. Meng. Yes.
    Ms. Marter. Ms. Meng votes yes.
    Ms. Frankel?
    Ms. Frankel. Yes.
    Ms. Marter. Ms. Frankel votes yes.
    Ms. Gabbard?
    Ms. Gabbard. Yes.
    Ms. Marter. Ms. Gabbard votes yes.
    Mr. Castro?
    Mr. Castro. Yes.
    Ms. Marter. Mr. Castro votes yes.
    Ms. Kelly?
    Ms. Kelly. Yes.
    Ms. Marter. Ms. Kelly votes yes.
    Mr. Boyle?
    Mr. Boyle. Yes.
    Ms. Marter. Mr. Boyle votes yes.
    Chairman Royce. Have all members been recorded?
    Ms. Ros-Lehtinen. Mr. Chairman.
    Chairman Royce. The gentlelady from Florida.
    Ms. Ros-Lehtinen. Mr. Chairman, how am I recorded?
    Ms. Marter. You are not recorded, ma'am.
    Ms. Ros-Lehtinen. I vote enthusiastically no.
    Ms. Marter. Ms. Ros-Lehtinen votes no.
    Chairman Royce. Mr. Duncan?
    Mr. Duncan. How am I recorded?
    Ms. Marter. You are not recorded, sir.
    Mr. Duncan. I vote no.
    Ms. Marter. Mr. Duncan votes no.
    Chairman Royce. The clerk will report the vote.
    Ms. Marter. Mr. Chairman, on that vote, there are 16 ayes 
and 21 noes.
    Chairman Royce. The amendment fails. I understand Mr. 
Zeldin of New York has an amendment at the desk. Does the 
member have an amendment at the desk?
    Mr. Zeldin. Yes, Mr. Chairman.
    Chairman Royce. The clerk will report.
    Ms. Marter. Amendment to H.R. 5931 offered by Mr. Zeldin of 
New York. Page 9, line 22, before the period, insert the 
following: ``, including a detailed description of all claims 
and counter-claims covered by the settlement<greek-l>s deg..''
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Royce. Without objection, considered as read. Let 
me recognize Mr. Zeldin for the purpose of explaining his 
amendment.
    Mr. Zeldin. Thank you, Mr. Chairman. My amendment expands 
on this bill's reporting requirements regarding settlements. 
Specifically, it will require a copy of the settlement 
agreements to be given to Congress, the status of some 
outstanding claims, and a guarantee that the settlement is in 
the best interests of the United States.
    There are still too many unanswered questions about this 
ransom payment--a $1.7 billion cash payment to Iran given 
simultaneously and connected to the release of four American 
hostages. This is $1.7 billion that went directly toward Iran's 
military. This is the same Iran military that not only 
embarrassed our 10 Navy sailors with photography and 
videography, but then gave awards to their generals in 
appreciation. This is the same military that right now is 
humiliating our Naval ships in international waters, and 
threatening to shoot down our planes. This is the same military 
responsible for killing American servicemembers. The President 
of the United States is saying and doing nothing to prevent 
that. Instead, he just agreed to pay for it.
    My amendment ensures that Congress and the American people 
have clarity about any American claims which may be conceded 
through settlements our Government enters into at the Iran-U.S. 
Claims Tribunal. Now some people blindly loyal to this 
President will say we owed the $400 million. Says who? We 
didn't owe the money. What about the $817 million that the U.S. 
claimed against Iran that Iran was contesting, or, over the 
course of the past few decades, Americans directly harmed by 
Iranian terrorism had sued Iran in U.S. courts and won. In 
2000, Congress passed a law authorizing that the funds needed 
to pay those judgments in an equal amount to the assets at that 
time frozen in Iran's foreign military sales account held by 
the U.S., which was around $400 million. When the American 
victims accepted those payments, their claims were subrogated 
to the United States, meaning that their claims against Iran 
became the United States' claims against Iran. That law clearly 
states that ``no funds shall be paid to Iran or released to 
Iran from the Foreign Military Sales Fund until such subrogated 
claims have been dealt with to the satisfaction of the United 
States.'' That is law.
    But the administration recently paid Iran the full $400 
million amount from the FMS fund, plus more than three times 
that amount in interest, a total of $1.7 billion in cash, 
apparently without requiring Iran to pay anything with regards 
to those American victims' claims for Iranian terrorism.
    The need for transparency about the effect of Tribunal 
settlements on all claims is obvious, including counterclaims 
and subrogated claims being pursued on behalf of the American 
people. I personally tried to access the Tribunal's Web site, 
which claims to contain<greek-l>, quote, deg. ``many fully 
searchable public documents<greek-l>, end quote deg..'' I had 
to request an account on the Tribunal's Web site, and 1 month 
has passed without a response. That route clearly is not an 
acceptable option. This bill and amendment are necessary for 
transparency, accountability, and national security.
    Again, it is United States law that ``no funds shall be 
paid to Iran or released to Iran from the Foreign Military 
Sales Fund until such subrogated claims have been dealt with to 
the satisfaction of the United States.''
    I thank Chairman Royce for addressing this important issue, 
and I thank his staff for their hard work on this bill. I yield 
back.
    Chairman Royce. Mr. Sherman.
    Mr. Sherman. I will just comment briefly. It is my 
understanding that the statute the gentleman was referring to 
only provides a statement of policy and not a statutory limit 
on the power of the President. He may disagree with what the 
President is doing. Whenever you settle a claim in a 
complicated relationship, you wonder, well, should I settle 
this claim without also getting justice on some other claim, 
and the President made a decision. That decision can be 
questioned, but I don't think it can be declared to be illegal 
simply because he didn't follow the policy language in a 
congressional enactment.
    Chairman Royce. Would the gentlemen respond?
    Mr. Zeldin. Thank you, Mr. Chairman. I don't want you to 
put words in my mouth. That is not what I stated. But what I 
did quote was a law, and I stated what that law stated. But I 
really don't want you to put words in my mouth.
    Mr. Sherman. Just to clarify for the record, the statute 
that you quoted, and quoted accurately, was a statement of 
policy and not a statute that limits presidential action. Do I 
have that right? Or would the gentleman want to comment?
    Chairman Royce. The parliamentarian could opine on this, 
but I am not sure you want to hear his answer. He is of the 
opinion that, yes, for the record, it would be both.
    Mr. Sherman. That it is a statutory----
    Chairman Royce. His opinion.
    Mr. Sherman. I look forward to getting various opinions on 
this, but I will yield back my time.
    Chairman Royce. In the interest of clarifying the 
underlying amendment, let me just, as I am looking at this 
amendment, what it does is it adds details to the reporting 
requirement so that we have clarity not only about the direct 
claims being settled, but also about any counterclaims or 
subrogated claims that may be extinguished by such an 
agreement. That is what the amendment does. My hope is that we 
pass this by voice and get on to the final bill.
    Mr. Engel.
    Mr. Engel. Mr. Chairman, I have no objection to the 
gentleman's amendment, but I would, again, say that while there 
may be objections to what the President did, he is not the 
first President to do it. It has been done by both Democratic 
and Republican Presidents. So I think that we object to the 
attacks on this President and this administration. Certainly we 
agree that there needs to be more oversight, and, again, I hope 
that we can sit down and come up with a bipartisan bill to do 
that notification, but I think what the gentleman is offering 
is reasonable, and I support it.
    Chairman Royce. I thank Mr. Engel, and hearing no further 
requests for recognition, the question occurs on this 
amendment. All those in favor, say aye. All those opposed, no. 
In the opinion of the Chair, the ayes have it and the amendment 
is agreed to.
    And hearing no further amendments, the question occurs on 
approving the bill as amended. All those in favor, say aye. All 
those opposed, no. In the opinion of the Chair, the ayes have 
it. 
    Mr. Connolly. Mr. Chairman, I ask for a recorded vote.
    Chairman Royce. A recorded vote has been requested. The 
clerk will call the roll.
    Ms. Marter. Mr. Chairman?
    Chairman Royce. Aye.
    Ms. Marter. Mr. Chairman votes yes.
    Mr. Smith?
    Mr. Smith. Yes.
    Ms. Marter. Mr. Smith votes yes.
    Ms. Ros-Lehtinen?
    Ms. Ros-Lehtinen. Aye.
    Ms. Marter. Ms. Ros-Lehtinen votes yes.
    Ms. Marter. Mr. Rohrabacher?
    [No response.]
    Ms. Marter. Mr. Chabot?
    Mr. Chabot. Yes.
    Ms. Marter. Mr. Chabot votes yes.
    Mr. Wilson?
    Mr. Wilson. Yes.
    Ms. Marter. Mr. Wilson votes yes.
    Mr. McCaul?
    Mr. McCaul. Aye.
    Ms. Marter. Mr. McCaul votes yes.
    Mr. Poe?
    [No response.]
    Ms. Marter. Mr. Salmon?
    Mr. Salmon. Yes.
    Ms. Marter. Mr. Salmon votes yes.
    Mr. Issa?
    Mr. Issa. Yes.
    Ms. Marter. Mr. Issa votes yes.
    Mr. Marino?
    Mr. Marino. Yes.
    Ms. Marter. Mr. Marino votes yes.
    Mr. Duncan?
    Mr. Duncan. Yes.
    Ms. Marter. Mr. Duncan votes yes.
    Ms. Marter. Mr. Brooks?
    [No response.]
    Ms. Marter. Mr. Cook?
    Mr. Cook. Yes.
    Ms. Marter. Mr. Cook votes yes.
    Mr. Weber?
    Mr. Weber. Yes.
    Ms. Marter. Mr. Weber votes yes.
    Mr. Perry?
    Mr. Perry. Yes.
    Ms. Marter. Mr. Perry votes yes.
    Mr. DeSantis?
    Mr. DeSantis. Yes.
    Ms. Marter. Mr. DeSantis votes yes.
    Mr. Meadows?
    Mr. Meadows. Yes.
    Ms. Marter. Mr. Meadows votes yes.
    Mr. Yoho?
    Mr. Yoho. Yes.
    Ms. Marter. Mr. Yoho votes yes.
    Mr. Clawson?
    [No response.]
    Ms. Marter. Mr. DesJarlais?
    [No response.]
    Ms. Marter. Mr. Ribble?
    Mr. Ribble. Yes.
    Ms. Marter. Mr. Ribble votes yes.
    Mr. Trott?
    Mr. Trott. Yes.
    Ms. Marter. Mr. Trott votes yes.
    Mr. Zeldin?
    Mr. Zeldin. Yes.
    Ms. Marter. Mr. Zeldin votes yes.
    Mr. Donovan?
    Mr. Donovan. Yes.
    Ms. Marter. Mr. Donovan votes yes.
    Mr. Engel?
    Mr. Engel. No.
    Ms. Marter. Mr. Engel votes no.
    Mr. Sherman?
    Mr. Sherman. No.
    Ms. Marter. Mr. Sherman votes no.
    Mr. Meeks?
    Mr. Meeks. No.
    Ms. Marter. Mr. Meeks votes no.
    Mr. Sires?
    Mr. Sires. No.
    Ms. Marter. Mr. Sires votes no.
    Mr. Connolly?
    Mr. Connolly. No.
    Ms. Marter. Mr. Connolly votes no.
    Mr. Deutch.
    [No response.]
    Ms. Marter. Mr. Higgins?
    Mr. Higgins. No.
    Ms. Marter. Mr. Higgins votes no.
    Ms. Bass?
    [No response.]
    Ms. Marter. Mr. Keating?
    Mr. Keating. No.
    Ms. Marter. Mr. Keating votes no.
    Mr. Cicilline?
    [No response.]
    Ms. Marter. Mr. Grayson?
    Mr. Grayson. No.
    Ms. Marter. Mr. Grayson votes no.
    Mr. Bera?
    Mr. Bera. No.
    Ms. Marter. Mr. Bera votes no.
    Mr. Lowenthal?
    Mr. Lowenthal. No.
    Ms. Marter. Mr. Lowenthal votes no.
    Ms. Meng?
    Ms. Meng. No.
    Ms. Marter. Ms. Meng votes no.
    Ms. Frankel?
    Ms. Frankel. No.
    Ms. Marter. Ms. Frankel votes no.
    Ms. Gabbard?
    Ms. Gabbard. No.
    Ms. Marter. Ms. Gabbard votes no.
    Mr. Castro?
    Mr. Castro. No.
    Ms. Marter. Mr. Castro votes no.
    Ms. Kelly?
    Ms. Kelly. No.
    Ms. Marter. Ms. Kelly votes no.
    Mr. Boyle?
    Mr. Boyle. No.
    Ms. Marter. Mr. Boyle votes no.
    Mr. Brooks. Mr. Chairman, how am I recorded?
    Ms. Marter. You are not recorded, Mr. Brooks.
    Mr. Brooks. I vote yes.
    Ms. Marter. Mr. Brooks votes yes.
    Chairman Royce. The clerk will report the vote.
    Ms. Marter. Mr. Chairman, on that vote, there are 21 ayes 
and 16 noes.
    Chairman Royce. H.R. 5931 is agreed to as amended. I now 
move the bill as amended be reported favorably to the House. 
All those in favor, say aye. All those opposed, no. In the 
opinion of the Chair, the ayes have it, and H.R. 5931 as 
amended is ordered favorably reported, and the motion to 
reconsider is laid on the table. And without objection, staff 
is directed to make any technical and conforming changes. We 
are adjourned. It concludes our business. Thank you to the 
committee members for their contributions and assistance with 
today's markup.
    [Whereupon, at 12:03 p.m., the committee was adjourned.]

                                     
                                   

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
